HHS/OIG, Audit -"Review of Adoption Opportunities Grants Administered by The Urban League of Rhode Island, Inc. September 30, 1997 Through September 29, 2000,"(A-01-01-02505)
Department
of Health and Human Services
"Review of Adoption Opportunities Grants Administered by The Urban League of Rhode Island, Inc. September 1997 Through
September 29, 2000, " (A-01-01-02505)
January 31, 2002
Complete
Text of Report is available in PDF format (2.2 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that the Urban League properly accounted for Federal funds.  However, the Urban League should
strive to improve its processes for setting, documenting, and achieving adoption opportunity program goals.   The
Urban League did not:  (1) document the achievement of its goal to reach 1,200 people interested in adopting; (2)
achieve its goal to recruit 40 Black, Hispanic, and other ethnic and racially mixed families and individuals to become
adoptive parents for minority children; and (3) achieve its goal to place 40 minority children (ages birth to 16 years,
with emphasis on children over 10 years old and sibling group) in these homes for each project year.  Our review of
program operations determined that the Urban League did not maintain an accurate record keeping system for recruiting and
tracking minority families interested in adopting minority children.  The Urban League could improve its performance
management on current and future projects by:  (1) assuring that all policies and procedures are put in writing;  (2)
making more and better use of computers to monitor and to document program activities, such as goal-setting, recruiting
interested families, screening applications, evaluating residences, training families, and tracking the status of potential
adoption placements; and (3) standardizing processes and forms to provide better flow and tracking of cases from initial
contact through completion.